            Office of Inspector General




April 28, 2005

WILLIAM ALMARAZ
MANAGER, LOS ANGELES DISTRICT

SUBJECT:         Audit Report - Efficiency of the Airmail Records Unit at the
                 Los Angeles, International Service Center
                 (Report Number NO-AR-05-010)

This report presents the results of our audit of the Airmail Records Unit (AMRU) at
the Los Angeles International Service Center (ISC) located in the Pacific Area
(Project Number 05YG003NO000). Our objective was to assess the efficiency of
operations at the Los Angeles, California, AMRU. This report is the second in a
series of site reports on the efficiency of AMRUs. The managing director,
International Network Operations, requested this audit, which we conducted in
cooperation with the Pacific Area manager of Operations Support, and the manager,
Los Angeles District. At the conclusion of our site reviews, we will issue a global
report addressing common issues.

The Los Angeles AMRU was not operating efficiently. Specifically, fewer records
were processed per workhour than at other similar-sized sites, workhours were
misaligned with workload, and plant operations personnel were not always sorting
mail properly. The Los Angeles AMRU could begin to improve operational efficiency
by reducing workhours by 5,450. This reduction could produce a cost avoidance of
approximately $1.8 million based on labor savings over a ten-year period. These
funds represent funds put to better use and will be reported as such in our
Semiannual Report to Congress. In addition, records were manually maintained,
and some unnecessary work was performed. We will address these latter issues in
our global report.

We made three recommendations in this report. During the audit, Postal Service
management agreed to reduce these workhours and provided us with an action
plan. Management agreed with our finding, recommendations, and monetary impact
and has initiatives in progress, completed, or planned addressing the issues in this
report. Management’s comments and our evaluation of these comments are
included in the report.




   1735 N Lynn St
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
We appreciate the cooperation and courtesies provided by your staff during the
audit. If you have any questions or need additional information, please contact
Robert J. Batta, Director, Network Operations - Processing, or me at
(703) 248-2300.

/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Paul E. Vogel
    Alfred Iniguez
    Michael J. Nappi
    Kerry L. Wolny
    Martha F. Sternberg
    Steven R. Phelps
Efficiency of the Airmail Records Unit at the              NO-AR-05-010
 Los Angeles International Service Center



                                       TABLE OF CONTENTS

 Executive Summary                                                i

 Part I

 Introduction                                                     1

     Background                                                   1
     Objective, Scope, and Methodology                            1
     Prior Audit Coverage                                         2

 Part II

 Audit Results                                                    3

     Assessment of Operational Efficiency                         3
     Recommendations                                              8
     Management’s Comments                                        8
     Evaluation of Management’s Comments                          8

 Appendix A. Cost Avoidance at the Airmail Records Unit,          9
             Los Angeles International Service Center
             (Funds Put to Better Use)

 Appendix B. Management’s Comments                              10
Efficiency of the Airmail Records Unit at the                                         NO-AR-05-010
 Los Angeles International Service Center


                                          EXECUTIVE SUMMARY
 Introduction                     We conducted a review of the Airmail Records Unit (AMRU)
                                  at the Los Angeles, California, International Service Center
                                  (ISC) located in the Pacific Area. Our objective was to
                                  assess the efficiency of operations at the Los Angeles
                                  AMRU. The managing director, International Network
                                  Operations, requested this audit, which we conducted in
                                  cooperation with the Pacific Area manager of Operations
                                  Support and the manager, Los Angeles District.

                                  This is our second in a series of site reports on the efficiency
                                  of AMRUs. At the conclusion of these site reviews, we will
                                  issue a global report addressing common issues.

 Results in Brief                 The Los Angeles AMRU was not operating efficiently.
                                  Specifically:

                                      •    Fewer records were processed per workhour than at
                                           other similar-sized sites.

                                      •    Workhours were misaligned with workload.

                                      •    Plant operations personnel were not always sorting
                                           mail properly.

                                      •    Records were manually maintained and retrieved.

                                      •    Some unnecessary work was performed.

                                  Title 39, United States Code, Chapter 4, Section 403, states,
                                  “The Postal Service shall plan, develop, promote and
                                  provide adequate and efficient postal services . . . .”

                                  These conditions occurred because Postal Service
                                  managers had not evaluated operational efficiency by
                                  benchmarking operations with similar-sized sites,
                                  extensively analyzed operations, or examined and updated
                                  procedures.

                                  We concluded that the Postal Service could begin to
                                  improve operational efficiency by reducing 5,450 AMRU
                                  workhours, periodically evaluating operations, and training
                                  plant operations personnel in proper mail sortation.


                                                    i
Efficiency of the Airmail Records Unit at the                                         NO-AR-05-010
 Los Angeles International Service Center




                                  This reduction could produce a cost avoidance of
                                  approximately $1.8 million based on labor savings over a
                                  ten-year period. These funds represent funds put to better
                                  use and will be reported as such in our Semiannual Report
                                  to Congress.

                                  The Postal Service could also improve efficiency by using
                                  available technologies and updating policies and
                                  procedures. The latter two issues will be addressed in our
                                  global report.

 Summary of                       We recommended the manager, Los Angeles District,
 Recommendations                  reduce 5,450 AMRU workhours, periodically evaluate
                                  operations, and provide additional training to plant
                                  operations personnel in the proper sortation of mail.

 Summary of                       Management agreed with our finding, recommendations,
 Management’s                     and associated monetary impact. The manager, Los
 Comments                         Angeles District, agreed to reduce workhours by 5,450 by
                                  the end of fiscal year 2008, periodically evaluate operational
                                  efficiency, and provide additional training to plant operations
                                  personnel in the proper sortation of mail. Management’s
                                  comments, in their entirety, are included in Appendix B of
                                  this report.

 Overall Evaluation               Management’s comments reflect that the manager,
 of Management’s                  Los Angeles District, is taking a proactive approach to
 Comments                         improving efficiency. Management’s planned actions should
                                  correct the site-specific issues identified in the report.




                                                  ii
Efficiency of the Airmail Records Unit at the                                                         NO-AR-05-010
 Los Angeles International Service Center


                                             INTRODUCTION
    Background                       When the Postal Service established the International
                                     Service Centers (ISC) Network in 1996, it absorbed the
                                     operations of the airmail records units (AMRU),1 which
                                     existed as part of the international exchange offices2
                                     before the creation of the ISC Network.

                                     AMRUs handle accounting records involving international
                                     mail for the international exchange offices. These units’
                                     main functions are to communicate with foreign postal
                                     administrations and reconcile incoming international mail
                                     records. The information maintained by the AMRUs is
                                     transmitted to the International Accounting Branch in
                                     St. Louis, Missouri, for processing and payment to
                                     transportation carriers and foreign postal administrations.

                                     AMRUs with 94 dedicated full-time employees are
                                     located in Los Angeles, California; Chicago, Illinois;
                                     San Francisco, California; Dallas, Texas; Honolulu,
                                     Hawaii; Jamaica, New York; Jersey City, New Jersey;
                                     Miami, Florida; and San Juan, Puerto Rico. International
                                     Network Operations has functional responsibility for
                                     AMRUs. The Los Angeles AMRU reports to the district
                                     manager, Finance. The unit employs one supervisor and
                                     seven full-time clerks. This unit used 11,036 workhours to
                                     process 137,675 international records from October 25,
                                     2003, to October 22, 2004.

    Objective, Scope,                The audit assessed the efficiency of operations at the
    and Methodology                  AMRU at the Los Angeles ISC. This is our second3 report
                                     on AMRU efficiency. The managing director, International
                                     Network Operations, requested this audit, which we
                                     conducted in cooperation with the Pacific Area manager of
                                     Operations Support and the manager, Los Angeles
                                     District.

                                     To assess the efficiency of the Los Angeles AMRU, we
                                     observed operations at the unit, analyzed volumes of


1
  AMRUs are also referred to as international records units.
2
  An international exchange office is a post office, airport mail center, or facility authorized to exchange
international mail and military mail, both air and surface, with another country.
3
  The Office of Inspector General (OIG) conducted a self-initiated audit of the New York ISC Airmail Records Unit
and issued a report on September 24, 2004.



                                                         1
Efficiency of the Airmail Records Unit at the                                      NO-AR-05-010
 Los Angeles International Service Center



                                   records processed and associated workhours, reviewed
                                   policies and procedures, and interviewed Postal Service
                                   employees.

                                   We compared the Los Angeles AMRU productivity to the
                                   benchmarked productivity rate. The benchmark was
                                   calculated using international AMRU weekly reports from
                                   units with similar staffing (7 to 10 craft positions).
                                   Comparable sites were Los Angeles, San Francisco,
                                   Miami, and Chicago.

                                   To analyze productivity, we used Postal Service
                                   international AMRU weekly reports from October 25, 2003,
                                   through October 22, 2004, and data from the Web
                                   Enterprise Information System. We did not test the validity
                                   of controls over these systems or data accuracy.

                                   This audit was conducted from November 2004 through
                                   April 2005 in accordance with generally accepted
                                   government auditing standards and included such tests of
                                   internal controls as were considered necessary under the
                                   circumstances. We discussed our observations and
                                   conclusions with appropriate management officials and
                                   included their comments where appropriate.

   Prior Audit                     We have issued one prior audit report on the efficiency of
   Coverage                        AMRUs, entitled Efficiency of the Airmail Records Unit at
                                   the New York International Service Center (Report
                                   Number NO-AR-04-011, issued September 24, 2004). We
                                   recommended Postal Service management reduce
                                   workhours by 30,000 to improve the efficiency of
                                   operations, and consider possible outsourcing. Postal
                                   Service management agreed with our recommendations.




                                                 2
Efficiency of the Airmail Records Unit at the                                      NO-AR-05-010
 Los Angeles International Service Center



                                           AUDIT RESULTS
 Assessment of                 The Los Angeles AMRU was not operating efficiently.
 Operational                   Specifically:
 Efficiency
                                    •   Fewer records were processed per workhour than at
                                        other similar-sized sites.

                                    •   Workhours were misaligned with workload.

                                    •   Plant operations personnel were not always sorting
                                        mail properly.

                                    •   Records were manually maintained and retrieved.

                                    •   Some unnecessary work was performed.

                               Title 39, United States Code, Chapter 4, Section 403,
                               states, “The Postal Service shall plan, develop, promote and
                               provide adequate and efficient postal services . . ..”

                               These conditions occurred because Postal Service
                               managers had not evaluated operational efficiency by
                               benchmarking operations with similar-sized sites,
                               extensively analyzed operations, or examined and updated
                               procedures. Consequently, the Los Angeles AMRU used
                               more workhours than necessary to process international
                               mail records.

                               As a result, the Postal Service could begin to improve
                               operational efficiency by reducing workhours by 5,450. This
                               reduction could produce a cost avoidance of approximately
                               $1.8 million based on labor savings over a ten-year period.
                               (See Appendix A for details.)

 Records Processed             The Los Angeles AMRU processed fewer records per
                               workhour than the average of other similar-sized sites. The
                               Los Angeles AMRU processed 12.48 records per workhour
                               as compared to the benchmarked average for similar-sized
                               sites of 24.65.




                                                  3
Efficiency of the Airmail Records Unit at the                                                          NO-AR-05-010
 Los Angeles International Service Center




                                Chart 1: Benchmarked Average Productivity
                          50

                          45

                          40

                          35

                          30
             Per Hour
   Records




                          25

                          20

                          15

                          10

                          5

                          0
                                03



                                03


                                03



                                 4



                                 4


                                 4



                                                               4


                                                               4



                                                               4


                                                               4



                                                                                                4



                                                                                                4
                               00



                               00


                               00



                                                             00


                                                             00



                                                             00


                                                             00



                                                                                              00



                                                                                              00
                              20



                              20


                              20


                             /2



                             /2


                             /2



                                                           /2


                                                           /2



                                                           /2


                                                           /2



                                                                                            /2



                                                                                            /2
                            5/



                            5/


                            5/


                           25



                           25


                           25



                                                         25


                                                         25



                                                         25


                                                         25



                                                                                          25



                                                                                          25
                          /2



                          /2


                          /2


                         1/



                         2/


                         3/



                                                       4/


                                                       5/



                                                       6/


                                                       7/



                                                                                        8/



                                                                                        9/
                        10



                        11


                        12




                                                         We e k s B e g i n n i n g

                         LA AMRU Records Per Hour                       Benchmarked Average Records Per Hour



                                       Chart 1 shows the productivity of other similar sites was
                                       almost double the productivity of the Los Angeles AMRU.
                                       This means the Los Angeles AMRU would need to reduce
                                       its workhours by nearly half of its current usage to obtain the
                                       benchmark average.

 AMRU Workhours                        Workhours were misaligned with workload. For example,
                                       for the week of September 25, 2004, the Los Angeles
                                       AMRU used 270 workhours to process 2,247 records,
                                       and for the week of October 16, 2004, the Los Angeles
                                       AMRU used the same number of workhours to process
                                       3,215 records. Postal Service managers advised they lack
                                       the necessary flexibility to assign employees to different
                                       work areas when insufficient workload exists. Chart 2
                                       shows that workhour usage is not dependent on the number
                                       of records requiring processing.




                                                         4
Efficiency of the Airmail Records Unit at the                                                                 NO-AR-05-010
 Los Angeles International Service Center




                                                 Chart 2: Workhour Usage


                    6000

                    5000

                    4000
       Number




                    3000

                    2000

                    1000

                        0
                        03



                                     03



                                     03



                                                  4



                                                              4



                                                              4



                                                                          4



                                                                          4



                                                                                        4



                                                                                        4



                                                                                                    4



                                                                                                                4
                                                00



                                                            00



                                                            00



                                                                        00



                                                                        00



                                                                                      00



                                                                                      00



                                                                                                  00



                                                                                                              00
                      20



                                   20



                                   20



                                              /2



                                                          /2



                                                          /2



                                                                      /2



                                                                      /2



                                                                                    /2



                                                                                    /2



                                                                                                /2



                                                                                                            /2
                    5/



                                 5/



                                 5/



                                            25



                                                        25



                                                        25



                                                                    25



                                                                    25



                                                                                  25



                                                                                  25



                                                                                              25



                                                                                                          25
                  /2



                               /2



                               /2



                                          1/



                                                      2/



                                                      3/



                                                                  4/



                                                                  5/



                                                                                6/



                                                                                7/



                                                                                            8/



                                                                                                        9/
                10



                             11



                             12




                                                              Weeks Beginning

                                          LA AMRU Records                          LA AMRU Workhours


    Mail Sortation                        Plant operations personnel were not always sorting mail
                                          properly. Our review of Verification Notes4 showed that
                                          many times, mail was sent to the wrong country. For
                                          example, from October 2003 to October 2004, the
                                          Los Angeles AMRU received over 6,500 Verification Notes
                                          advising that mail had been incorrectly sent. This missent
                                          mail resulted in additional work for the Los Angeles AMRU
                                          employees who handle and input these records. Better
                                          training emphasizing the importance of sorting mail to the
                                          correct country, could greatly reduce or eliminate this
                                          workload.

    Manual Records                        Records were manually maintained and retrieved. The
                                          AMRU maintained more than 400,000 hard-copy
                                          international mail records. Paper use and storage could be
                                          minimized by exchanging information through Electronic
                                          Data Interchange.5 Illustration 1 shows the Los Angeles
                                          AMRU’s manual filing system.




4
  Verification Notes, formerly known as Bulletin of Verifications, are used between foreign postal administrations to
communicate irregularities in the preparation, dispatch, and receipt of mail.
5
  Electronic Data Interchange is a computer-to-computer exchange of information in a standard format.



                                                                  5
Efficiency of the Airmail Records Unit at the                                     NO-AR-05-010
 Los Angeles International Service Center




                                         Illustration 1: Los Angeles AMRU Manual
                                                   Hard-Copy Filing System.




                               We also observed that the processing of manual records
                               was slow and inefficient. Los Angeles AMRU receives
                               records from plant operations and foreign postal
                               administrations. Los Angeles AMRU clerks manually count,
                               sort, and categorize records for processing. They perform
                               data entry and file hard-copy records in the unit. They also
                               manually retrieve records from their files to respond to
                               foreign postal administrations by mail concerning actions
                               taken on incoming records. Automating these processes
                               and electronically transmitting responses would be more
                               efficient. Illustration 2 shows Los Angeles AMRU’s manual
                               work environment. We will address this issue in our global
                               report.




                                                 6
Efficiency of the Airmail Records Unit at the                                                           NO-AR-05-010
 Los Angeles International Service Center



                                              Illustration 2: Los Angeles AMRU
                                        Work at this unit could be automated to reduce
                                                           workhours.




    Extra Work                   We observed that employees were performing unnecessary
                                 work. For example, our observations showed 40 hours a
                                 week were spent collecting, sorting, and filing approximately
                                 1,200 Inbound Express Mail6 manifests to comply with
                                 procedures. These procedures required AMRU to complete
                                 a Missing/Duplicate Report on Express Mail manifests
                                 initiated by the International Accounting Branch. However,
                                 according to management at the International Accounting
                                 Branch, this report has not been required for more than
                                 two years. This condition occurred, in part, because of
                                 outdated procedures.7 We will address this issue in our
                                 global report.




6
 Express Mail is a mail class that provides expedited delivery service. This is the fastest mail service offered.
Express Mail International Service is available between the United States and most other countries.
7
  Two primary guides for AMRU operations are F-59, International Exchange Office Procedures, last updated in
June 1992, and Standard Operating Procedures, last updated in January 1995.



                                                         7
Efficiency of the Airmail Records Unit at the                                        NO-AR-05-010
 Los Angeles International Service Center




 Recommendations               To improve operating efficiency at the AMRU, we
                               recommend the manager, Los Angeles District:

                                    1. Reduce workhours by 5,450, resulting in a cost
                                       savings of approximately $1.8 million over a ten-year
                                       period.

                                    2. Periodically evaluate operational efficiency and
                                       staffing to determine whether further workhour
                                       adjustments are necessary based on workload.

                                    3. Provide additional training to plant operations
                                       personnel in the proper sortation of mail.

 Management’s                  Management agreed with our finding, recommendations,
 Comments                      and associated monetary impact. They agreed to reduce
                               workhours by 5,450 by the end of fiscal year (FY) 2008,
                               periodically evaluate operational efficiency, and provide
                               additional training to plant operations personnel in the
                               proper sortation of mail. In addition, management plans to
                               focus on additional training and gain access to systems that
                               will provide error data allowing them to take a more
                               aggressive approach to this recommendation.

 Evaluation of                 Management’s comments are responsive to our
 Management’s                  recommendations. Management’s comments reflect that
 Comments                      the manager, Los Angeles District, is taking a proactive
                               approach to improving efficiency. Management’s planned
                               actions should correct the site-specific issues identified in
                               the finding.




                                                  8
Efficiency of the Airmail Records Unit at the                                  NO-AR-05-010
 Los Angeles International Service Center




                                 APPENDIX A
                 COST AVOIDANCE AT THE AIRMAIL RECORDS UNIT,
                  LOS ANGELES INTERNATIONAL SERVICE CENTER
                          (FUNDS PUT TO BETTER USE)



                                                                           Discounted Total
                                                      Undiscounted Total
                                                                              Savings or
                                                      Savings or (Costs)
                                        Total                                   (Costs)
                                                         (10 Years –
                                      Workhour                                (10 Years –
                                                         2.7 Percent
     Employee Category                Reduction                                5 Percent
                                                       Escalation Rate)
                                                                            Discount Rate)

   Airmail Records Unit
   Clerks (PS-6): yearly                 5,450            $2,539,915          $1,847,858
   reduction of 1,817
   hours over three years.

Notes

    •   The total workhour reduction was based on decreasing AMRU hours by
        5,450.

    •   Workhour reductions were based on Postal Service management’s plan to
        reduce 5,450 workhours over a three-year period from FYs 2006 to 2008,
        based on FY 2004 workhour usage of 11,316.

    •   We calculated cost avoidance using the workhour savings multiplied by the
        escalated labor rate over a ten-year period.

    •   We calculated the net present value using the discount rate of 5 percent over
        a ten-year period. The yearly escalation factor is 2.7 percent.

    •   Labor rates were based on the Postal Service’s FY 2004 published rates for a
        PS-06 mail processing clerk.

Funds Put to Better Use – Funds that can be used more efficiently by
implementing recommended actions.




                                                  9
Efficiency of the Airmail Records Unit at the                NO-AR-05-010
 Los Angeles International Service Center



                         APPENDIX B. MANAGEMENT’S COMMENTS




                                                10
